No. 21-xxxxx

IN THE
SUPREME COURT OF THE UNITED STATES
Davendra Anand - PETITIONER [Pro Se]
vs.
Commissioner of Internal Revenue - RESPONDENT
On Petition for a Writ of Certiorari to The United
States Court of Appeals for the Second Circuit

PETITION FOR WRIT OF CERTIORARI
CERTIFICATE OF SERVICE
As per Covid Guidelines - I, Davendra Anand, Pro Se, certify that on May 3,
2021, I have served the electronic version of the Petition for a Writ of
Certiorari along with Certificate of Compliance on Counsel of record for
Respondent, as PDF files via their Emails of record [francesca.uaolini@usdoi.aov:
allison.k.turbiville@usdoi.aov1. This is in lieu of mailing 3 Hardcopies to their
physical address as given below.
Ms. Allison Turbiville; Ms. Francesca Ugolini
Dept, of Justice
P.0. Box 502
Ben Franklin Station
Washington DC - 20044
All parties required to be served have been served.
Submitted on May 3, 2021.

s/s Davendra Anand
Davendra Anand, Pro Se
58 Firehouse Road, Trumbull, CT 06611
E-Mail: danand55@gmail.com
Telephone: 203-895-5899

l

